IN THE SUPREME COURT OF THE UNITED STATES

BELL, QUINTIN ANTONIO
Petitioner
No: 19-0039

vs.

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
July 17, 2019
cc:
MIGUEL A. ESTRADA
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036
PARESH S. PATEL
OFFICE OF FEDERAL PUBLIC
DEFENDER
DISTRICT OF MARYLAND
6411 IVY LANE
SUITE 710
GREENBELT, MD 20770

